                                       A MESSAGE FROM THE
                                        INSPECTOR GENERAL
This Semiannual Report to Congress highlights the activities of the U.S. Nuclear
Regulatory Commission (NRC) Office of the Inspector General (OIG) for the
6-month period ending September 30, 2005.

Before summarizing our recent activities, I want to
acknowledge the excellence and competence of the auditors,
investigators, and support staff who form the foundation of
the NRC OIG. Just recently, for the third consecutive year,
two of our audit and investigative teams were recognized
by the President’s Council on Integrity and Efficiency for
outstanding performance. Most recently, the Award for
Excellence in Audit was received for significant accomplish-
ment in auditing and reporting on the ability of the NRC
to respond to a security incident at United States nuclear
power plants. The Award for Excellence in Investigations was
received for outstanding work in investigating and reporting
failures in the NRC’s billing and financial statement process
for nuclear reactor plants licensed by the agency. I commend these talented men
and women for their hard work and dedication to the mission of this office.

Our office completed 13 performance audit reports of NRC’s programs and
operations making numerous recommendations to NRC for program
improvement. Of note, the audit of NRC’s contract closeout process showed
that $6.4 million could be put to better use by the timely deobligation of funds
on expired contracts. In addition, OIG completed 51 investigations and 2 Event
Inquiries. Thirteen cases were referred to the Department of Justice and 19 were
forwarded to NRC management for action during this reporting period.

Finally, I would like to express my appreciation for the collaborative work
between my staff and agency managers to address OIG findings and implement the
recommendations made by my office. I look forward to continuing this work as
we strive to accomplish our common goal of ensuring the effectiveness, efficiency,
and integrity of NRC programs and operations.




Hubert T. Bell


                                                                                                 
                                                                  April 1, 2005 – September 30, 2005
ii
NRC OIG Semiannual Report
                                                                                                CONTENTS
Highlights ...................................................................................................................v
OIG Organization and Activities . ..........................................................................1
	     NRC’s Mission ....................................................................................................1
	     OIG Mission and Strategies ...............................................................................1
		          Audit Planning ..............................................................................................2
		          Investigative Activities . ................................................................................3
	     OIG General Counsel Activities . ......................................................................4
		          Regulatory Review ........................................................................................4
		          Training at the Office of Government Ethics Conference .......................6
	     Other Activities ...................................................................................................7
		          New OIG Management Information System . ...........................................7
		          Attendance at NOBLE Conference .............................................................8
		          NRC OIG Shares Expertise with Frederick County, MD ........................9
		          OIG Staff Learn About France’s Nuclear Program . ................................10
Audits .......................................................................................................................11
	     Audit Summaries . .............................................................................................11
	     Audits In Progress .............................................................................................22
Investigations ...........................................................................................................26
	     Investigative Case Summaries .........................................................................26
Statistical Summary of OIG Accomplishments .................................................33
	     Investigative Statistics .......................................................................................33
	     Audit Listings . ...................................................................................................35
	     Audit Tables . ......................................................................................................37
Abbreviations and Acronyms . ..............................................................................41
Reporting Requirements ........................................................................................43

                                                                                                                                   iii
                                                                                        April 1, 2005 – September 30, 2005
iv
NRC OIG Semiannual Report
                                                                  HIGHLIGHTS
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
•	 The NRC Reactor Program System (RPS) is an information technology tool
   that provides planning, scheduling, and reporting capabilities to support the
   NRC reactor inspection and licensing program. OIG conducted an audit to
   determine whether the RPS provides for the availability, confidentiality, and
   integrity of the data stored in the system, and meets its required operational
   capabilities.

•	 Camera cell phones, if misused, pose security and privacy threats because
   they enable people to covertly photograph images or scenes and transmit
   them immediately to the Internet. OIG conducted an audit of NRC’s policy
   and practices concerning camera cell phones.

•	 NRC’s telecommunications program includes local and long-distance voice
   services, voice mail, videoconferencing, and personal communications
   equipment. Although OIG’s audit focused primarily on the agency’s non-
   secure telecommunications systems, it also addressed the agency’s use of
   secure cell phones.

•	 Listed systems that process safeguards and/or classified information require
   more security protections than the typical unclassified information process-
   ing systems. OIG conducted a system evaluation to test the effectiveness of
   the security policies, procedures, practices, and controls for listed systems
   processing safeguards and/or classified information.

•	 As part of the audit of NRC’s Decommissioning Program, OIG examined
   aspects of the NRC’s approach to applying the Office of Management and
   Budget’s Program Assessment Rating Tool (PART). PART is a diagnostic
   tool intended to systematically and consistently assess the performance of
   program activities across the Federal Government.




                                                                                               
                                                                 April 1, 2005 – September 30, 2005
                 •	 OIG conducted an audit to determine whether (1) NRC’s contract closeout
                    policies and procedures adhere to applicable regulations, (2) management
                    controls associated with the closeout process are adequate, and (3) NRC
                    complies with its own closeout procedures, with an emphasis on timeliness.

                 •	 Decommissioning is defined as removing a nuclear facility or site safely
                    from service and reducing residual radioactivity. OIG conducted an audit to
                    determine whether NRC’s Decommissioning Program achieves the desired
                    performance and results as stated in the agency’s strategic plan.

                 •	 OIG conducted a system evaluation to evaluate the effectiveness of NRC
                    security policies, procedures, practices, and controls for standalone personal
                    computers and laptops.

                 •	 NRC’s primary means of communicating concerns or issues to licensees is
                    through generic communications. The purpose of this audit was to assess
                    the effectiveness of the agency’s generic communications program.

                 •	 Consistent with the requirements of the Federal Information Security Man-
                    agement Act (FISMA), OIG conducted a series of assessments to provide
                    NRC with the information needed to determine the effectiveness of its over-
                    all information security programs and for it to develop strategies and best
                    practices for improving information security.

                 •	 The Reports Consolidation Act of 2000 requires that each Inspector General
                    summarize what he or she considers to be the most serious management and
                    performance challenges facing the agency and assess the agency’s progress
                    in addressing those challenges. The NRC IG identified nine management
                    challenges that are considered to be the most serious.




vi
NRC OIG Semiannual Report
INVESTIGATIONS
•	 OIG conducted an investigation based on information that NRC Region I
   should have been aware of underlying equipment and operational problems
   at the Hope Creek Nuclear Generating Station that surfaced after a drain tank
   pipe failure.

•	 OIG completed an investigation based on information that a Federal Govern-
   ment vendor was suspected of double billing, fraudulently adding freight/
   shipping charges to purchases, and selling non-trade compliant equipment
   to the Federal Government.

•	 In response to a Congressional request and allegations from the public, OIG
   conducted an Event Inquiry to determine the adequacy of NRC’s oversight
   of the Vermont Yankee Nuclear Power Station extended power uprate review
   process.

•	 OIG conducted an investigation of a materials licensee in Puerto Rico and
   the licensee’s president for falsely claiming Small Entity Status and obtain-
   ing reduced annual license fees from the NRC.

•	 OIG completed an investigation into NRC’s handling of reports that two
   radioactive sources imported from Russia by a private firm were missing
   for several months after they cleared customs in New York.

•	 OIG completed an investigation that determined that an NRC attorney
   entered Notices of Appearance and represented the NRC in administrative
   court proceedings before the Atomic Safety and Licensing Board Panel
   without the required active attorney bar membership.

•	 During an OIG proactive initiative to review academic credentials of NRC
   employees, OIG discovered that an NRC employee had listed a fictitious
   Bachelor of Science degree on an official security form and an application
   for a promotion.




                                                                                          vii
                                                                April 1, 2005 – September 30, 2005
viii
NRC OIG Semiannual Report
  OIG ORGANIZATION AND ACTIVITIES
NRC’s MISSION
The mission of the U.S. Nuclear Regulatory Commission (NRC) is to license and
regulate the Nation’s civilian use of byproduct, source, and special nuclear materials
to ensure adequate protection of public health and safety, promote the common
defense and security, and protect the environment. NRC’s scope of responsibility
includes regulation of commercial nuclear power plants; research, test,
and training reactors; nuclear fuel cycle facilities; medical, academic,
and industrial uses of radioactive materials; and the transport, storage, OIG is committed
and disposal of radioactive material and waste. NRC’s regulations are
designed to protect the public and occupational workers from radia- to ensuring the
tion hazards in industries that use radioactive materials.
                                                                          integrity of NRC
OIG MISSION AND STRATEGIES                                                programs and
In 1978, the United States Congress passed the Inspector General (IG)      operations.
Act to ensure integrity and efficiency within the Federal Government
and its programs. NRC’s OIG was established on April 15, 1989,
pursuant to Inspector General Act Amendments contained in Public
Law 100-504. OIG’s mission is to (1) conduct and supervise independent audits
and investigations of agency programs and operations; (2) promote economy, ef-
fectiveness, and efficiency within the agency; (3) prevent and detect fraud, waste,
and abuse in agency programs and operations; (4) develop recommendations
regarding existing and proposed regulations relating to agency programs and
operations; and (5) keep the agency head and Congress fully informed of prob-
lems in agency programs.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, the OIG Strategic Plan for Fiscal Years (FYs)
2003 - 2008 is based, in part, on an assessment of the strategic challenges facing
NRC. The plan identifies OIG’s priorities and sets out a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals which generally
align with NRC’s mission and goals:


                                                                                                
                                                                  April 1, 2005 – September 30, 2005
                 1.	 Advance NRC’s efforts to enhance safety and protect the environment.

                 2.	 Enhance NRC’s efforts to increase security in response to the current
                     threat environment.

                 3. 	 Improve the economy, efficiency, and effectiveness of NRC corporate
                      management.

                 Audit Planning

                 Effective audit planning requires current knowledge about the agency’s mission
                 and the programs and activities used to carry out that mission. Accordingly, OIG
                 continually monitors specific issue areas to strengthen OIG’s internal coordination
                 and overall planning process. Under the OIG Issue Area Monitor (IAM) program,
                 staff designated as IAMs are assigned responsibility for keeping abreast of major
                 agency programs and activities. The broad IAM areas address nuclear reactors,
                 nuclear materials, nuclear waste, international programs, security, information
                 management, and financial management and administrative programs.

                 The audit planning process is designed to yield audit assignments that will iden-
                 tify opportunities for efficiency, economy, and effectiveness in NRC programs
                 and operations; detect and prevent fraud, waste, and mismanagement; improve
                 program and security activities at headquarters and regional locations; and
                 respond to unplanned priority requests and targets of opportunities. The prior-
                 ity for conducting audits is based on (1) mandatory legislative requirements;
                 (2) emphasis by the President, Congress, NRC Chairman, or other NRC
                 Commissioners; (3) a program’s susceptibility to fraud, manipulation, or other
                 irregularities; (4) dollar magnitude, or resources involved in the proposed audit
                 area; (5) newness, changed conditions, or sensitivity of an organization,
                 program, function, or activities; (6) prior audit experience, including the
                 adequacy of internal controls; and (7) availability of audit resources.





NRC OIG Semiannual Report
Investigative Activities
OIG investigative strategies and initiatives add value to agency programs and
operations by identifying and investigating allegations of fraud, waste, and abuse
leading to criminal, civil, and administrative penalties and recoveries. By focus-
ing on results, OIG has designed specific performance targets with an eye on
effectiveness. Because NRC’s mission is to protect the health and safety of the
public, the main investigative concentration involves alleged NRC misconduct
or inappropriate actions that could adversely impact on health and safety-related
matters. These investigations typically include allegations of:

•	 Misconduct by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and
   candidly and openly seek and consider the public’s input during the regula-
   tory process.

•	 Conflict of interest by NRC employees with NRC contractors and licensees.

OIG has also implemented a series of proactive initiatives designed to iden-
tify specific high-risk areas that are most vulnerable to fraud, waste, and abuse.
A primary focus is electronic-related fraud in the rapidly developing E-Govern-
ment processes within NRC. OIG is committed to improving the security of this
constantly changing electronic business environment by investigating unauthor-
ized intrusions and computer-related fraud, and by conducting computer forensic
examinations. Other proactive initiatives will focus on determining if instances
of procurement fraud, theft of property, Government credit card abuse, and
fraud in the Federal Employees Compensation Act program are evident.




                                                                                                
                                                                  April 1, 2005 – September 30, 2005
                 OIG GENERAL COUNSEL ACTIVITIES
                 Regulatory Review

                 Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
                 existing and proposed legislation, regulations, and implementing Management
                 Directives (MD) and policy issues and makes recommendations concerning their
                 impact on the economy and efficiency of programs and operations administered
                 by the agency. NRC agency directives that require submission of all draft legisla-
                 tion, regulations, and policies to OIG facilitate this statutory review.

                 OIG conducts its regulatory review program by examining submitted documents
                 reflecting proposed regulatory, statutory, and policy actions 	and measures them
                 against standards evaluating the potential for fraud, efficiency, and effectiveness.
                 The review also encompasses issues raised in OIG investigations, audits, and prior
                 regulatory review commentaries.

                 In addition, OIG commentaries are used to address issues related to preserving the
                 independence and integrity of OIG under its statutory precept. These objectives
                 are met through formal memoranda as well as meetings and discussions.

                 In order to more effectively track agency response to regulatory review comments,
                 the OIG requests written replies within 90 days, with either a substantive reply
                 or status of issues raised by the OIG.

                 From April 1, 2005, through September 30, 2005, OIG reviewed more than 215
                 agency documents, including approximately 60 Commission papers (SECYs) and
                 155 Federal Register Notices, regulatory actions, and statutes.

                 The most significant commentaries are summarized below:

                 Management Directive (MD) 3.4, Release of Information to the Public, and MD
                 3.54, Collection of Information and Reports Management, both focused on pro-
                 tection of sensitive information with concurrent concern for appropriate open-
                 ness. For MD 3.4, OIG highlighted a new requirement to perform document
                 security reviews of documents as part of the Sensitive Information Screening




NRC OIG Semiannual Report
Project (SISP), and proposed that the SISP be included in future drafts. OIG also
added language to clarify treatment of its investigative and audit documents and
authority to designate documents as Official Use Only. OIG suggestions on 3.54
related advice to more precisely identify the positions responsible for clearance
officer approval.

MD 4.2, Administrative Control of Funds, MD 4.3, Financial Management Systems,
and MD 11.6, Financial Assistance Program, all related to oversight of agency
funding. Extensive comments were issued for MD 4.2, both to reflect the inde-
pendent role of OIG and to share our office’s audit and oversight experience with
the agency in this critical area. Our comments focused on reporting require-
ments in instances of suspected misconduct, with specific directions in the case of
potential Anti-Deficiency Act violations. In addition, travel funding and reimburse-
ment issues were highlighted for clarification and obligations and deobligation
of funds in procurement actions was discussed with an emphasis on consistency
and inclusion of reference to work by the Department of Energy. Similarly, MD
4.3 comments related the need for reference to OIG’s role in assisting the agency
in cases of alleged or suspected fraud, waste, or abuse. To further this interest,
OIG suggested the addition of the IG Act as a reference and specific direction
for employees to report suspected wrongdoing to the Inspector General. Our
comments on MD 11.6, which described the functions of the Small Business and
Civil Rights office in its oversight of funding, suggested more comprehensive
guidance to include both pre- and post-award reviews. Additional direction to
specify expected timeframes for required actions was also provided.

MD 10.137, Senior Executive Service Performance Management System, and MD
10.138, Senior Executive Service (SES) Reduction In Force (RIF), both updated
guidance on personnel practices as they pertain to SES employees. MD 10.137,
appropriately described the new SES appraisal system. OIG suggested inclusion
of the IG Act as a reference to the IG’s independent personnel authority over
SES staff within the OIG. In addition, consistency in terminology for positions,
e.g., “Rating Official,” should be used throughout the directive. Under the RIF
procedures described in MD 10.138, OIG related the need to separately identify
the authority of the IG over SES personnel in the OIG. The need for additional
definitions was also identified, along with suggested guidance to include
provisions stating that rules applicable to veterans do not apply to SES members.


                                                                                                  
                                                                    April 1, 2005 – September 30, 2005
                 MD 2.8, Project Management Methodology, describes the processes and proce-
                 dures applicable to information technology (IT) resource management. The
                 matters addressed in the OIG comments included recommendations for more
                 precise identification of agency officials responsible for actions in the IT review
                 and approval process and their respective roles. OIG also suggested that internal
                 software policies be included.

                 Training at the Office of Government Ethics Conference

                 On September 20, 2005, Maryann L. Grodin, the General Counsel to the NRC
                 Inspector General, Jerry Lawson, Counsel to the Small Business Administration
                 IG, and Gladis Griffith, Counsel to the U.S. Postal Service Inspector General,
                 presented a panel discussion on “The Relationship Between Designated Agency
                 Ethics Officials (DAEO) and Inspectors General” at the U.S. Office of Govern-
                 ment Ethics (OGE) Annual Conference in New York, NY. This panel was part
                 of a 3-day program for more than 500 Federal attorneys.

                 The presentation focused on aspects of legal areas most relevant to the functions
                 of Inspectors General and DAEOs. Ms. Grodin’s presentation described the statu-
                 tory framework of 5 U.S.C App. 4, the OGE provisions which direct the duties
                 and responsibilities of DAEOs, and 5 U.S.C. App. 3, the Inspector General Act,
                 which is the source of authority for Inspectors General and their staffs to oversee
                 agency programs and operations. Mr. Lawson and Ms. Griffith addressed issues
                 involved in internal investigations and the duty to report suspected violations.
                 In addition to their prepared remarks, each of the panel members fielded ques-
                 tions from the audience on topics ranging from standards of proof supporting the
                 duty to report suspected wrongdoing, Federal fraud statutes, criminal and civil
                 investigative processes, attorney client privilege, and jurisdiction. Case examples
                 were used to illustrate points including sensitive matters of wrongdoing by public
                 officials and cooperation between IG offices and Ethics officials.





NRC OIG Semiannual Report
OTHER ACTIVITIES
New OIG Management Information System

In April 2005, the NRC OIG implemented the second phase of a new manage-
ment information system (MIS) designed to enable staff to work smarter and
boost efficiency.

Over the years, program requirements to support the OIG’s mission changed, but
the automated tools used to support OIG business processes did not. OIG systems
were standalone, single-user systems, devel-
oped with what is now considered to be dated
technology. They were difficult to maintain,
enhance, and integrate into NRC’s informa-
tion technology architecture, and required the
use of many manual processes to compensate
for deficiencies. To increase the office’s ef-
ficiency and effectiveness, OIG initiated a
project to implement a modern, multi-user
MIS to meet business requirements.

System requirements and potential solutions
were identified, alternatives were evaluated,
and a business case analysis was prepared.
Two commercial-off-the-shelf products
developed by Paisley Consulting, AutoAudit      OIG investigative members participating in
and Magnum Case Management Software,            MAGNUM training. MAGNUM is an integral part
were chosen as OIG’s MIS software solution.     of the new OIG Management Information System.

The OIG MIS provides an environment that allows the audit and investigation
components to complete their work in shared, secure databases. Users create
essential documents in the system, and they are automatically organized into
electronic folders by audit or investigation. The shared database design makes
documents immediately available to other team members for collaboration, and
to managers for review and comment. Built-in workflow and standard format




                                                                                              
                                                                April 1, 2005 – September 30, 2005
                 capabilities ensure that established processes are followed. MIS databases are
                 encrypted, and access is controlled at the database, document, and field levels.
                 Remote access features allow users to work offline and replicate changes back
                 to the central databases.

                 AutoAudit was implemented in January 2004, and automates key aspects of
                 the audit process. The program provides the ability to assess risk and develop
                 annual audit plans; manage and schedule staff resources; prepare, review, and
                 approve audit work papers; track progress in meeting audit milestones; and track
                 resolution of audit recommendations.

                 Magnum was implemented in April 2005, and automates key aspects of the
                 investigation process. The program provides the ability to receive and process
                 allegations; create and process investigations; manage and schedule staff resources;
                 prepare, review, and approve investigative documents; track progress in meeting
                 investigation milestones; and track prosecutorial and administrative referrals.

                 The OIG MIS increased office efficiency by eliminating 3 legacy systems and
                 approximately 20 manual forms, reducing duplicate data entry, enhancing
                 management’s ability to supervise and monitor OIG activities, balancing staff
                 workloads, and measuring success based upon established performance measures.

                 Attendance at NOBLE Conference

                 NRC OIG staff members, including Inspector General Hubert T. Bell, attended
                 the 29th Annual National Organization of Black Law Enforcement Executives
                 (NOBLE) Training Conference from July 23 -27, 2005, in Atlanta, Georgia.
                 NOBLE was first conceptualized during a 1976 symposium on reducing crime
                 in urban low income areas, sponsored by the Joint Center for Political Studies,
                 the Police Foundation, and the Law Enforcement Assistance Administration.
                 Recognizing the need for black police executives to exchange ideas and opinions
                 about law enforcement and their individual leadership roles in policymaking
                 and establishing law enforcement standards, participants used the occasion to
                 create NOBLE.





NRC OIG Semiannual Report
The theme of the 2005 conference was “Living the Dream Through Justice by
Action.” The conference included an exhibit area with displays from numerous
Federal agencies, local agencies, and private companies; a career fair; business
meetings; speakers; and many informative and well-timed sessions. The training
workshops included (1) Identity Theft, (2) Gang Awareness, (3) Internet Investiga-
tive Tools, (4) Rap Music and Its Influence on Youth, (5) Health Issues Affecting
the Black Community, and (6) The Barriers of Race, Culture, and Faith.

The 29th Annual Training Conference and Exhibition was very well attended and
received favorable comments from participants. The NRC OIG employees who
attended found that the conference provided them with a great opportunity to
exchange information with other law enforcement personnel and gain valuable
insight into the issues facing law enforcement officers today.

NRC OIG Shares Expertise with Frederick County, Maryland

NRC OIG staff members George A. Mulley, Senior Level Assistant for
Investigative Operations, and Cheryl Windsor, Investigative Analyst,
met with two internal auditors from Frederick County, Maryland to share
information on OIG’s hotline program. The information provided was
intended to assist the county in benchmarking its process for handling
hotline complaints.

Topics covered included (1) sources of complaints, (2) classification
codes for complaints, (3) forms used for complaints, (4) allegation
tracking and hotline operations, (5) eliciting information from callers,
(5) summarizing the complaints, and (6) developing a database to capture
information. In addition to the topics discussed, the OIG staff provided some
real life examples of hotline calls and how to respond to callers and capture the
information.

The Frederick County internal auditors agreed that the information provided by
NRC OIG was extremely valuable and would enable them to establish a quality
hotline program.




                                                                                                
                                                                  April 1, 2005 – September 30, 2005
                    OIG Staff Learn about France’s Nuclear Program

                    In June 2005, OIG audit staff met with Regis P. Babinet, Counselor for Nuclear
                    Energy, French Atomic Energy Commission, Embassy of France. The meeting
                    was in support of OIG’s audit to determine the effectiveness of NRC’s oversight
                                                               of byproduct materials. OIG staff
                                                               contacted Dr. Babinet because the
                                                               International Atomic Energy Agency
                                                               and the U.S. Government Account-
                                                               ability Office recognized France’s
                                                               “best practices” in the tracking
                                                               and control of nuclear materials.
                                                               At the meeting with Dr. Babinet,
                                                               O I G l e a r n e d a b o u t F r a n c e’s
                                                               organizational structure regarding
                                                               its oversight of nuclear materi-
                                                               als. Subsequent to the meeting,
                                                               Dr. Babinet provided additional
                                                               information requested by OIG audit
                                                               staff. OIG found these contacts with
Regis P. Babinet, Counselor for Nuclear Energy, French         Dr. Babinet to be very informative
Atomic Energy Commission, Embassy of France (center)           and appreciates the time and effort
with members of the Office of the Inspector General staff      expended by the French Government.
pictured from left to right: Cheryl Miotla, Audit Manager;
Hubert T. Bell, Inspector General; Dr. Babinet; Anthony        In September 2005, OIG audit staff
Lipuma, Audit Team Leader; and Michael Cash,                   attended a meeting hosted by NRC
Engineering Technical Advisor.                                 with representatives from the French
                                                               Directorate General of Nuclear Safety
                    and Protection Against Radiation. The meeting agenda included discussions
                    on risk-informing materials safety programs, tracking of sources, and status of
                    import and export regulations.




10
NRC OIG Semiannual Report
                                                                                 AUDITS
To help the agency improve its effectiveness during this period, OIG completed
13 performance audits or evaluations that resulted in recommendations to NRC
management. In two of its internal audits, OIG found $6,431,600 in funds that
could be put to better use.

AUDIT SUMMARIES
Audit of NRC’s Reactor Program System

OIG Strategic Goal: Corporate Management

The Nuclear Regulatory Commission’s (NRC) mission is to regulate the
Nation’s civilian use of byproduct, source, and special nuclear materials to ensure
adequate protection of public health and safety, promote the common defense and
security, and protect the environment. Fundamental to the regulatory process
is NRC’s commercial nuclear power plant inspection program, which assesses
whether plant operations are properly conducted and equipment is properly
maintained. Inspectors examine licensee activity, provide inspection findings to
licensee managers, and conduct followup inspections to ensure that corrective
actions are taken.

The Reactor Program System (RPS) is an information technology tool that
provides planning, scheduling, and reporting capabilities to support the NRC
reactor inspection and licensing programs. It is used by NRC managers to assess
the effectiveness and uniformity of the implementation of those programs and
related policies. The Office of Nuclear Reactor Regulation (NRR) and the regions
use the RPS to schedule their work assignments and to plan and schedule licens-
ing activities in NRR and inspection activities at nuclear power plants.

OIG conducted this audit to determine whether the RPS (1) provides for the
availability, confidentiality, and integrity of the data stored in the system and
(2) meets its required operational capabilities.

Audit Results. While the implementation of the RPS has allowed for a single
system for entering inspection information, the information is not well protected,
complete, or fully accurate. To ensure that the system meets operational require-
ments, NRC needs to:


                                                                                             11
                                                                   April 1, 2005 – September 30, 2005
                 •	 Comply with system access control requirements.

                 •	 Ensure accurate and timely inspection data.

                 •	 Improve management of the system help service.

                 •	 Improve the system configuration control process.

                 •	 Provide training to system users.

                 Without improvements to the RPS, NRC decisionmakers cannot rely on the
                 information in the system or have a complete and accurate picture of the
                 nuclear power plant inspection program. (Addresses Management Challenges
                 #2 and 5)

                 Audit of NRC’s Policy and Practices Concerning Camera Cell Phones
                 OIG Strategic Goal: Security

                 Camera cell phones, if misused, pose security and privacy threats because they
                 enable people to covertly photograph images or scenes and transmit them im-
                 mediately to the Internet. Approximately 20 percent of U.S. cell phone users had
                 camera cell phones during 2004 and, according to analysts, by 2006, 80 percent
                 of the cell phones sold in the U.S. will be camera phones.

                 Audit Results. NRC lacks a camera cell phone policy to:

                 •	 Establish requirements for the NRC acquisition of camera cell phone for use
                    by employees.

                 •	 Remind employees and visitors that the prohibition against taking photographs
                    in NRC buildings also applies to camera cell phones.

                 •	 Provide security guards with guidance on the handling of camera cell phones
                    brought into the buildings by visitors.


12
NRC OIG Semiannual Report
Deliberate or careless use of camera cell phones can compromise classified or
sensitive information or even physical security measures used to protect NRC
facilities. The growing popularity of camera cell phones highlights the need to
heighten employee and visitor awareness about NRC’s prohibition against pho-
tographs inside agency facilities. (Addresses Management Challenges #2 and 5)

Audit of NRC’s Telecommunications Program

OIG Strategic Goal: Security

NRC’s telecommunications program includes local and long-distance voice ser-
vices, voicemail, videoconferencing, and personal communications equipment
(e.g., calling cards, cell phones). This audit focused primarily on the agency’s
non-secure telecommunications systems, although auditors also reviewed the
agency’s use of secure cell phones.

OIG conducted this audit to evaluate (1) controls over the use of NRC telecom-
munications services and (2) the physical security of NRC telecommunications
systems.

Audit Results. Improvements are needed to strengthen controls over the use of
NRC’s telecommunications services and the physical security of NRC telecom-
munications systems. NRC’s telecommunications program oversight does not
ensure that:

•	 Employees and contractors are using NRC’s telephone system appropriately
   and that phone bills are accurate.

•	 Employees are consistently using the Government calling card for long-
   distance calls while on official travel.

•	 The agency’s secure cell phone users are receiving the best possible coverage
   to meet their needs.

•	 Physical security requirements are enforced pertaining to telephone equip-
   ment closets.

As a result, the agency cannot determine if vendor charges are accurate and fails
to control the use of telecommunications services by employees and contractors;

                                                                                           13
                                                                 April 1, 2005 – September 30, 2005
                 NRC is needlessly spending approximately $31,600 per year to pay for traveler’s
                 calls home; secure cell phones have failed to provide connectivity in several
                 situations where users wanted secure calling capability; and agency telephone
                 systems and other equipment maintained in equipment closets are vulnerable
                 to tampering. (Addresses Management Challenges #2 and 5)

                 System Evaluation of Listed Systems That Process Safeguards and/or
                 Classified Information

                 OIG Strategic Goal: Security

                 Listed systems that process safeguards and/or classified information require
                 more security protections than the typical unclassified information process-
                 ing systems. Many of the listed systems processing safeguards and/or classified
                 information are either standalone personal computers or laptops. None of these
                 systems are connected to the agency’s local area network when processing safeguards
                 and/or classified information. The objective of this system evaluation was to test
                 the effectiveness or the security policies, procedures, practices, and controls for
                 listed systems processing safeguards and/or classified information.

                 Audit Results. The evaluation determined that:

                 •	 The inventory of listed systems is inaccurate and information is
                    inconsistent.

                 •	 Some listed systems lack required security plans.

                 •	 Some security controls are not implemented as required.

                 As a result, the agency cannot be certain that system sponsors/owners of listed
                 systems processing safeguards and/or classified information have adequate con-
                 trols in place to protect the information. (Addresses Management Challenge #2)




14
NRC OIG Semiannual Report
Review of NRC’s Application of the Office of Management and Budget’s
Program Assessment Rating Tool (PART)

OIG Strategic Goal: Corporate Management

As part of the audit of NRC’s Decommissioning Program, OIG examined aspects
of the NRC’s approach to applying PART. PART is a diagnostic tool intended to
systematically and consistently assess the performance of program activities across
the Federal Government. At the time of this report, five agency programs had
been reviewed using PART and scored by the Office of Management and Budget
(OMB). Four programs received an OMB rating of “Effective.” One received a
rating of “Moderately Effective.”

Audit Results. While the agency’s programs have scored well on PART reviews,
OIG observed inconsistencies in the agency’s approach. Specifically, NRC does
not have agencywide guidance for applying PART to its programs to assure con-
sistency in PART submittals and a common interpretation of OMB guidance.
As a result, the value of PART to NRC as a tool for making continuous program
improvements and informing management and budget decisions is diminished.
(Addresses Management Challenge #6)

Audit of NRC’s Contract Closeout Process

OIG Strategic Goal: Corporate Management

An expired contract is closed once it is both physically and administratively
completed. The contract closeout process involves several administrative steps
that can include, but are not limited to, settlement of subcontracts by the prime
contractor; completion of a contract audit to determine final indirect and direct
costs, if appropriate; payment of the final invoice; and deobligation of excess
funds. The contract closeout process is subject to the requirements set forth in
Federal Acquisition Regulation 4.804, “Closeout of contract files.” The objectives
of this audit were to determine whether:

•	 NRC’s contract closeout policies and procedures adhere to applicable
   regulations.




                                                                                             15
                                                                   April 1, 2005 – September 30, 2005
                 •	 Management controls associated with the closeout process are adequate.

                 •	 NRC complies with its own closeout procedures, with an emphasis on timeli-
                    ness.

                 Audit Results. The audit disclosed that NRC generally does not close expired
                 contracts in accordance with Federal Acquisition Regulation required time stan-
                 dards. This delay is the result of inadequate policies and management’s use of
                 an incorrect performance metric. The audit also determined that there was ap-
                 proximately $6.4 million on 148 contracts awaiting closeout as of September 30,
                 2004, which had not been deobligated within 90 days of contract expiration, as
                 required by NRC policy. The delay in deobligating these funds caused a delay in
                 making the funds available for other agency priorities. (Addresses Management
                 Challenge #6)

                 Audit of the Decommissioning Program

                 OIG Strategic Goal: Safety

                 Under the Government Performance and Results Act (GPRA) of 1993, Federal
                 agencies are required to schedule, conduct, and report on program evaluations
                 in selected areas. OMB developed the Program Assessment Rating Tool (PART)
                 to assess and improve program performance so that the Federal Government can
                 achieve better results and to help inform funding and management decisions. It
                 builds on GPRA by encouraging agencies to integrate operational decisions with
                 strategic and performance planning. NRC’s FY 2006 performance plan identified
                 NRC’s decommissioning program as an activity scheduled to undergo a PART
                 review and agency managers requested that OIG review this program.

                 NRC continues to regulate commercial nuclear reactors, fuel cycle facilities, and
                 NRC material licensees after they are permanently shut down and begin decom-
                 missioning. Decommissioning is defined as removing a facility or site safely from
                 service and reducing residual radioactivity to a level that permits (1) release of the
                 property for unrestricted use and termination of the license or (2) release of the
                 property under restricted conditions and termination of the license. In FY 2005,
                 NRC conducted decommissioning licensing and inspection activities at 20 power
                 reactors and at approximately 40 complex materials and fuel facilities sites.


16
NRC OIG Semiannual Report
The objective of this audit was to determine whether NRC’s Decommissioning
Program achieves the desired performance and results as stated in the agency’s
strategic plan, performance plan, and operating plan.

Audit Results. While NRC has processes in place to monitor, evaluate, and re-
port on decommissioning program performance, OIG was unable to verify some
performance results. In addition, NRC has not implemented changes as a result
of an internal self-assessment that were intended to improve performance of the
decommissioning program. (Addresses Management Challenge #1)

System Evaluation of Security Controls for Standalone Personal
Computers and Laptops

OIG Strategic Goal: Security

NRC has an unknown number of standalone personal computers (PCs) or lap-
tops, which require special security controls because they are not connected to
the agency’s local area network. The objective of this system evaluation was to
evaluate the effectiveness of NRC security policies, procedures, practices, and
controls for standalone PCs and laptops.

Audit Results. The evaluation determined that:

•	 Security controls for standalone PCs and laptops are not adequate.

•	 Standalone PCs and laptops are not monitored for compliance with
   Federal regulations.

•	 Information technology coordinators have inconsistent
   understanding of disposal practices for standalone PCs and
   laptops.

As a result, the agency cannot be certain that standalone PCs and laptops
have adequate controls in place to protect the information processed on them.
(Addresses Management Challenge #2)




                                                                                          17
                                                                April 1, 2005 – September 30, 2005
                 Audit of NRC’s Generic Communications Program

                 OIG Strategic Goal: Safety
                 NRC’s primary means of communicating concerns or issues to licensees is through
                 generic communications. These communications allow NRC to communicate and
                 share industry experiences with applicable groups of licensees and other inter-
                 ested stakeholders. The information is relayed in writing to licensees in the form
                 of Generic Letters, NRC Bulletins, Information Notices, and other documents.
                 Some generic communications are intended solely to transmit information, while
                 others request actions and require responses from licensee.
                 The purpose of this audit was to assess the effectiveness of the agency’s generic
                 communications program.
                 Audit Results. The audit identified generic communications, specifically
                 safeguards advisories, that are issued outside of NRC’s existing regulatory frame-
                 work. As a result, the agency (1) may be unable to pursue actions requested or
                 required of licensees in its generic communications and (2) compromises its
                 openness policy, thereby affecting the public’s confidence in NRC’s regulatory
                 processes and decisionmaking.
                 Additionally, controls for oversight of licensee action on generic communications
                 are inadequate and NRC did not employ a sound methodology when conduct-
                 ing its effectiveness assessment of the Generic Communications Program. As
                 a result, the agency risks the potential loss of safety/regulatory data and lacks
                 assurance that its generic communications are effective. (Addresses Management
                 Challenges #1, 4, and 7)

                 Evaluation of NRC’s Certification and Accreditation Efforts

                 OIG Strategic Goal: Security
                 The security certification and accreditation of information systems is integral to
                 an agency’s information security program and is an important activity that sup-
                 ports the risk management process required by the Federal Information Security
                 Management Act (FISMA). Information systems under development must be
                 certified and accredited prior to becoming operational. Operational information
                 systems must be re-certified and re-accredited every 3 years in accordance with
                 Federal policy, and whenever there is a significant change to the information

18
NRC OIG Semiannual Report
system or its operational environment. The objective of this audit was to evaluate
the certification and accreditation efforts at NRC.
Results: 19 of 27 of operational NRC information systems are operating under an
interim authorization to operate, and therefore are not considered certified and
accredited. The information systems are not certified and accredited because:
•	 The certification and accreditation has lapsed or was never completed.
•	 NRC information systems are being re-certified and re-accredited using new
   requirements from the National Institute of Standards and Technology, which
   are proving difficult to meet.

(Addresses Management Challenge #2)

Independent Evaluation of NRC’s Implementation of the Federal
Information Security Management Act (FISMA) for Fiscal Year 2005

OIG Strategic Goal: Security
The Federal Information Security Management Act (FISMA) was enacted on
December 17, 2002. FISMA outlines the information security management require-
ments for agencies, including the requirements for an annual review and annual
independent assessment by agency Inspectors General. The annual assessments
provide agencies with the information needed to determine the effectiveness of
overall security programs and to develop strategies and best practices for improv-
ing information security.
The objective of the review was to perform an independent evaluation of NRC’s
implementation of FISMA for FY 2005.
Results: NRC’s information security program has several major weaknesses.
Specifically:
•	 The majority of NRC systems have not been categorized in accordance with
   Federal Information Processing Standards (FIPS) Publication 199, Standards
   for Security Categorization of Federal Information and Information Systems.
•	 Agency self-assessments are not timely.
•	 Annual contingency plan testing is not being performed.


                                                                                            19
                                                                  April 1, 2005 – September 30, 2005
                 •	 Oversight of contractor systems is lacking.
                 •	 The agency’s inventory of information systems is only 51-70 percent complete
                    because (1) information in the two systems that maintain inventory information
                    is inaccurate and inconsistent and (2) only one system contains information
                    on system interfaces and that information is inaccurate and inconsistent. In
                    addition, the agency’s inventory is not maintained and updated annually.
                 •	 E-authentication risk assessments completed in accordance with OMB-04-04,
                    E-Authentication Guidance for Federal Agencies, are incorrect and inconsistent
                    with the systems’ FIPS 199 security categorizations.
                 •	 Nineteen of the agency’s 27 operational information systems are operating
                    under an interim authorization to operate, and therefore are not considered
                    certified and accredited.
                 •	 The agency lacks procedures for ensuring employees with significant informa-
                    tion technology security responsibilities receive security training and aware-
                    ness.
                 (Addresses Management Challenge #2)

                 Evaluation of NRC’s Automated Information Inventory Process

                 OIG Strategic Goal: Security
                 FISMA outlines the information security management requirements for agen-
                 cies, including the requirement to develop and maintain an inventory of major
                 information systems operated by or under control of the agency. The agency
                 maintains two inventories, the Information Technology Systems Security Tracking
                 System and the Enterprise Architecture Repository System. The objective of this
                 review was to evaluate NRC’s process for maintaining an inventory of automated
                 information systems.
                 Results: The evaluation found that:
                 •	 Information in NRC automated information system inventories is inaccurate
                    and inconsistent.
                 •	 NRC automated information systems are not designed to capture all of the
                    data needed to meet Federal requirements.


20
                 (Addresses Management Challenge #2)


NRC OIG Semiannual Report
Inspector General’s Assessment of the Most Serious Management
Challenges Facing NRC

OIG Strategic Goal: Corporate Management
On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000
to provide financial and performance management information in a more mean-
ingful and useful format for the Congress, the President, and the public. The act
requires that the Inspector General of each Federal agency summarize what he
or she considers to be the most serious management and performance challenges
facing the agency and assess the agency’s progress in addressing those challenges.
The Inspector General, in his submission, defined serious management chal-
lenges as mission critical areas or programs that have the potential for a perennial
weakness or vulnerability that, without substantial management attention, would
seriously impact agency operations or strategic goals.
Audit Results. The Inspector General identified the following nine management
challenges that are considered to be the most serious. The nine challenges are
distinct but are interdependent. The NRC continues to address these challenges
in its planning and day-to-day activities.


         NRC’s Most Serious Management Challenges as of September 30, 2005
 Challenge 1                                                Challenge 6
 Protection of nuclear material used for civilian purposes. Administration of all aspects of financial management.

 Challenge 2                                               Challenge 7
 Protection of information.                                Communication with external stakeholders
                                                           throughout NRC regulatory activities.

 Challenge 3                                               Challenge 8
 Development and implementation of a risk-informed         Intra-agency communication (up, down, and across
 and performance-based regulatory approach.                organizational lines).

 Challenge 4                                               Challenge 9
 Ability to modify regulatory processes to meet a          Managing human capital.
 changing environment.

 Challenge 5                                                      The challenges are not ranked in any order
 Implementation of information resources.                         of importance.




                                                                                                                        21
                                                                                              April 1, 2005 – September 30, 2005
                 AUDITS IN PROGRESS
                 Audit of NRC’s FY 2005 Financial Statements

                 OIG Strategic Goal: Corporate Management

                 Under the Chief Financial Officers Act and the Government Management and
                 Reform Act, OIG is required to annually audit NRC’s financial statements. OIG
                 will audit NRC’s financial statements in accordance with applicable auditing
                 standards. The audit will express an opinion on the agency’s financial statements,
                 evaluate internal controls, review compliance with applicable laws and regula-
                 tions, review the performance measures included in the financial statements for
                 compliance with OMB guidance, and review the controls in the NRC’s computer
                 systems that are significant to the financial statements. In addition, OIG will be
                 measuring the agency’s improvements by assessing corrective action taken on
                 prior years’ audit findings. (Addresses Management Challenge #6)

                 Followup Audit of NRC’s Decommissioning Fund Program

                 OIG Strategic Goal: Corporate Management

                 Under Title 10 Code of Federal Regulation (CFR) Part 50, NRC must receive
                 reasonable assurances from nuclear reactor licensees that funds will be available
                 for the decommissioning process. In the Review of NRC’s Decommissioning Fund
                 Program, issued in February 2000, OIG reported weaknesses in the management
                 controls over NRC’s decommissioning process. Among the weaknesses identi-
                 fied were lack of consistency in reported data and the need to determine the best
                 method of assessing decommissioning costs at nuclear power plant sites. OIG
                 reported that NRC’s decommissioning formulas were developed in 1986 and
                 could be outdated. The report noted that significant differences exist between
                 two different methods used to calculate estimates for decommissioning costs. In
                 response to OIG’s findings, the Deputy Executive Director for Reactor Programs
                 took no immediate action. Instead, implementation was delayed until a future
                 time when more cost data would be available. Nineteen nuclear power plants
                 have permanently shut down and are in some phase of decommissioning.

                 The objective of this audit is to evaluate NRC’s actions on the FY 2000 OIG audit of
                 NRC’s decommissioning fund program. (Addresses Management Challenge 6)

22
NRC OIG Semiannual Report
Audit of the Office of Nuclear Security and Incident Response

OIG Strategic Goal: Security

In April 2002, NRC established the Office of Nuclear Security and Incident
Response (NSIR) to consolidate and streamline selected NRC security, safeguards,
and incident response responsibilities and resources. The
office reports to the Deputy Executive Director for Homeland
Protection and Preparedness. The formation of the office      Until NSIR was formed,
is one result of the Commission’s ongoing top-to-bottom
review of its safeguards and physical security program in the the assessment of
aftermath of the terrorist attacks of September 11, 2001.
                                                              security responsibilities
Until NSIR was formed, the assessment of security respon-
sibilities was determined by the type of facility requiring        was determined by the
protection. For example, the Office of Nuclear Material Safety
and Safeguards was responsible for the security programs for       type of facility requiring
protection of fuel cycle facilities, materials, transportation,
disposal, and certain waste-storage facilities. The Office
                                                                   protection.
of Nuclear Reactor Regulation (NRR) was responsible for
security programs at nuclear power plants and non-power
reactors, decommissioning facilities, and certain spent fuel storage facilities. NRC
determined that a centralized security organization would be a more effective
and efficient way of organizing security activities.

NSIR has assumed responsibility for an important part of NRC’s operations. As
with any new organization, and especially one with such an important function,
it must operate effectively and efficiently in order to meet its mission.

The objective of this audit is to conduct an independent evaluation of NSIR
operations. (Addresses Management Challenges #1, 2, 4, and 8)

Audit of NRC’s Oversight of Byproduct Materials and Sealed Sources

OIG Strategic Goal: Safety

Byproduct and sealed sources are used for medical, industrial, and academic
purposes. Medical uses include medical procedures, medical research, and


                                                                                          23
other diagnostic tests. Industrial uses of nuclear materials include industrial


                                                                April 1, 2005 – September 30, 2005
                 radiography, irradiators, well-logging, gauging devices, other measuring systems,
                 and research and development. Additionally, universities, colleges, high schools,
                 and other academic institutions use byproduct and sealed source nuclear materi-
                 als in classroom demonstrations, laboratory experiments, and research. NRC (or
                 the responsible Agreement State) has regulatory authority over the possession
                 and use of byproduct, source, or special nuclear material. In the post-September
                 11, 2001, environment, Congress continues to maintain interest in oversight of
                 nuclear materials. An August 2004 letter to NRC from a member of Congress
                 expressed concern regarding vulnerabilities that could be exploited by terrorists
                 seeking to attack the United States.

                 The objective of this audit is to determine whether NRC’s oversight of byprod-
                 uct and sealed source materials provides reasonable assurance that licensees are
                 using the materials safely and account for and control materials. (Addresses
                 Management Challenges #1 and 4)

                 Audit of the Technical Training Center (TTC)

                 OIG Strategic Goal: Corporate Management

                 The NRC’s Office of Human Resources manages training programs conducted at
                 the TTC in Chattanooga, Tennessee. TTC, with a budget of $3.6 million and 27
                 FTE, conducts training programs related to the regulation of nuclear materials
                 and facilities including nuclear power plant technology, radiation protection, risk
                 assessment, and regulatory skills. Both Agreement State students and agency
                 employees attend TTC courses.

                 The objective of this audit will be to identify opportunities to improve the econ-
                 omy, efficiency, and/or effectiveness of TTC’s operations in consonance with the
                 President’s Management Agenda. (Addresses Management Challenge #9)

                 Safety Culture and Climate Survey

                 OIG Strategic Goal: Corporate Management

                 In 2002, OIG engaged an independent contractor to (1) assist in completing an
                 assessment of the agency’s safety culture and climate, (2) compare the results
                 against NRC’s 1998 Safety Culture and Climate Survey, and (3) compare the


24
                 results to Government and national benchmarks.


NRC OIG Semiannual Report
The 2002 survey showed that NRC had made substantial progress in improving
its safety culture and climate since the 1998 survey. The survey identified areas
for improvement and recommended that NRC senior management focus on im-
provement in these areas. In response to the results of the survey, the Chairman
tasked the Executive Director for Operations (EDO) to conduct an assessment of
the key areas for improvement and establish priorities for NRC attention. With
Commission approval, the EDO established a task group to evaluate the key areas
identified in the OIG’s report and to develop recommendations for improvement
strategies. On July 25, 2003, the task group issued its report containing a recom-
mendation that the agency focus its improvement efforts on four major areas.

The objective of this survey will be to: (1) assess the agency’s safety culture and
climate, (2) compare the results against NRC’s 1998 and 2002 Safety Culture
and Climate Surveys, and (3) compare the results to Government and national
benchmarks. (Addresses Management Challenge #8)

Integrated Personnel Security System

OIG Strategic Goal: Corporate Management

The Division of Facilities and Security, Office of Administration, plans, develops,
establishes, and administers policies, standards, regulations, and procedures for
the overall NRC security program. The personnel security program is a signifi-
cant part of the overall security program and strategy. The Atomic Energy Act of
1954 requires that all NRC employees have a security clearance. NRC’s person-
nel security program retains personnel security and database files on more than
15,000 persons (active and retired). NRC sought to develop, deploy, and support
an efficient, accurate system to replace its automated personnel security system.
The replacement system, the Integrated Personnel Security System, was intended
to provide NRC with an integrated system that meets the specified capabilities
through the use of a Web-enabled system that allows authorized users access
through the NRC Intranet.

The objectives of this audit will be to determine if the system meets its required
operational capabilities. (Addresses Management Challenges #2 and 5)




                                                                                             25
                                                                   April 1, 2005 – September 30, 2005
INVESTIGATIONS
                 During this reporting period, the OIG received 108 allegations, initiated 38
                 investigations and 2 Event Inquiries, and closed 51 cases and 2 Event Inquiries.
                 In addition, 13 cases were referred to the Department of Justice and 19 were
                 forwarded to NRC management.

                 INVESTIGATIVE CASE SUMMARIES
                 Special Inquiry: NRC’s Oversight of the Hope Creek Nuclear
                 Generating Station

                 OIG Strategic Goal: Safety

                                              OIG conducted an investigation based on informa-
                                              tion that Region I, NRC, should have been aware of
                                              underlying equipment and operational problems at
                                              the Hope Creek Nuclear Generating Station that sur-
                                              faced after an October 2004 drain tank pipe failure.
                                              The allegation further indicated that the underlying
                                              plant problems caused Hope Creek plant operators
                                              to voice strong reservations to Hope Creek manage-
                                              ment about the planned restart of the plant following
                                              repair of the drain tank pipe.

                                              In addition to the Hope Creek restart issue, OIG
Hope Creek Nuclear Generating Station
                                              received allegations involving lack of regulatory
                                              oversight by the NRC staff in the following areas:

                 •	 The Hope Creek and Salem Creek Nuclear Generating Stations Safety
                    Conscious Work Environment.

                 •	 January 2005 management changes at Hope Creek which did not follow the
                    Public Service Enterprise Group’s (PSEG) Executive Review Board (ERB)
                    process.

                 •	 Technical system problems including the Hope Creek’s “B” recirculation
                    pump, Reactor Core Isolation Cooling System, and High Pressure Coolant
                    Injection System.

                 •	 Failure to properly address allegations of discrimination by PSEG
26                  management.

NRC OIG Semiannual Report
OIG determined that following repair of the drain tank pipe, appropriate
discussions occurred between Hope Creek management and plant operators
which resulted in the decision by management to keep the plant offline and to
transition into a scheduled refueling outage. A special NRC inspection team
reviewed circumstances surrounding the October 2004 drain tank pipe failure
and concluded that PSEG’s overall response was adequate and that none of the
problems would have prevented the systems from performing their intended
safety functions.

OIG learned that the NRC Region I allegations staff substantiated the alleger’s
concern that the work environment at the Salem and Hope Creek stations needed
improvement. The NRC plans to monitor PSEG’s efforts to improve the work en-
vironment at these stations. Region I reviewed and confirmed the allegation that
the ERB process was not used to assess the January 2005 management changes at
Hope Creek. Region I requested that PSEG reassess the ERB issue to determine
if it was being fully implemented. Also, Region I advised the alleger that it was
monitoring the ERB issue and will continue providing heightened regulatory
oversight of this issue until progress has been confirmed.

With respect to the alleger’s numerous technical concerns regarding systems or
programs at Hope Creek, OIG found that Region I reviewed each concern and
kept the alleger informed as to the status of concerns raised in accordance with
the NRC Management Directives.

OIG found that the allegations staff and Office of Investigations, Region I, NRC,
appropriately handled the alleger’s discrimination claim consistent with the NRC
Management Directives. (Addresses Management Challenges #1 and 3)

Adequacy of NRC’s Oversight of Vermont Yankee Power Uprate
Review Process

OIG Strategic Goal: Safety

In response to a Congressional request and allegations from the public, OIG
conducted an Event Inquiry to determine the adequacy of NRC’s oversight of the
Vermont Yankee Nuclear Power Station (VYNPS) extended power uprate (EPU)
review process. OIG addressed allegations as to whether NRC was following


                                                                                           27
                                                                 April 1, 2005 – September 30, 2005
                 its process, if the NRC staff was being pressured by or colluding with General
                 Electric (GE) and/or Entergy, and if the NRC staff made misleading statements
                 to the public pertaining to the VYNPS EPU.

                 Following the licensee’s proposed license amendment request to increase its
                 maximum authorized power level, termed an extended power uprate, members
                 of the public questioned NRC’s allowing the licensee, in calculating the avail-
                 able net positive suction head (NPSH) of safety-related pumps, to take credit
                 for a large amount of containment accident pressure over a long period of time.
                 According to the public, this was inconsistent with the NRC’s Regulatory Guide
                 (RG) 1.82, Rev. 3, (Water Sources for Long Term Re-circulation Cooling Follow-
                 ing a Loss-of Coolant Accident), dated November 2003 and the NRR Standard
                 Review Plan 001, published in December 2003. The NRC guidance documents
                 state that credit for containment accident pressure in calculating the available
                 NPSH of safety-related pumps should be minimized to the fullest extent pos-
                 sible. The public stated that, in recent years, NRC has approved some licensee
                 amendment requests for EPUs that took credit for a small amount of containment
                 accident pressure over a short period of time. However, the public noted that
                 this was not the case in VYNPS’s EPU request; consequently, the public stated
                 that NRC was not following its process in this review.

                 OIG found that since 2001, the NRC has consistently interpreted and applied
                 its interpretation of RG 1.82 in approving five other EPUs. However, the NRC
                 acknowledged that the language in RG 1.82 was not clear and began work to
                 revise RG 1.82 to more accurately reflect the agency’s position that credit can be
                 taken for containment accident pressure. NRC will also revise the NRR Standard
                 Review Plan 001 to make it consistent with the RG 1.82.

                 OIG did not find evidence of NRC staff colluding or bowing to pressure from GE
                 or Entergy, and did not substantiate allegations pertaining to misleading state-
                 ments being made to the public. OIG also received three allegations relating to
                 the NRC staff being pressured by or colluding with GE and/or Entergy during
                 the Vermont Yankee power uprate review process and four allegations that NRC
                 staff provided misleading and/or inaccurate statements to the public regarding
                 the Vermont Yankee EPU. (Addresses Management Challenges #1 and 3)




28
NRC OIG Semiannual Report
False Claims of Small Business Status by NRC Licensee

OIG Strategic Goal: Corporate Management

OIG conducted an investigation of a materials licensee in Puerto Rico and its
president as a result of a review of the NRC Small Business Entity Status Program.
Title 10 Code of Federal Regulations (CFR) Part 171 provides that a materials
licensee who qualifies as a small business entity may be eligible for a reduced
annual NRC licensee fee. The criteria NRC uses to determine whether a busi-
ness qualifies as a small business entity eligible for a reduced fee are based upon
specific size standards. One of these standards is the amount of the applicant’s
gross receipts for a period of time. OIG learned that the materials licensee in
Puerto Rico submitted five NRC Forms 526, Certification of Small Entity Status
for the Purposes of Annual Fees Imposed under 10 CFR Part 171, for FYs 2001
through 2005. To receive a reduced annual license fee, the licensee claimed on
each form that its gross receipts were less than $350,000.

OIG determined that for fiscal years (FYs) 2001 through 2005, the owner signed
and submitted five NRC Forms 526, falsely certifying to the NRC that the
company was a small business entity. OIG determined that the owner significantly
under-reported the company’s gross receipts to the NRC by claiming that its gross
receipts averaged less than $350,000 a year. As a result of falsely claiming a
small business status, the licensee benefitted from reduced annual licensee fees
for the NRC license for 5 fiscal years and underpaid the NRC a total of $55,500.
(Addresses Management Challenge #6)

Adequacy of NRC Oversight of Lost Nuclear Material

OIG Strategic Goal: Safety

OIG conducted an investigation into NRC’s handling of a report that two
radioactive sources imported from Russia by a private firm were missing.
The sources were reported missing several months after clearing Customs on
October 9, 2004, in New York. On February 8, 2005, the firm reported to NRC




                                                                                             29
                                                                   April 1, 2005 – September 30, 2005
                 that the sources never arrived at the company’s facility and could not be located.
                 NRC reported the incident to the Federal Bureau of Investigation which subse-
                 quently found the missing sources on February 9, 2005, at a shipping facility in
                 Boston, Massachusetts.

                 As a result of the investigation, OIG determined that NRC staff first learned of
                 the missing sources on February 8, 2005, after the company contacted the NRC
                 to report the missing sources. On the same day, NRC Region I notified New
                 York and New Jersey State officials of the incident. On March 15, 2005, NRC
                 Region IV conducted an inspection of the firm’s facility in Houston, Texas, and
                 State of Texas officials also conducted an inspection of the firm. Neither the
                 State of Texas nor Region IV identified any violations. NRC staff found that
                 (1) a contractor was responsible for shipping the sources for the firm and the
                 contractor did not report the sources missing to the firm until February 7, 2005,
                 and (2) the weight of the individual two sources did not meet the reporting
                 requirement threshold that required the licensee to notify NRC within 24-hours of
                 learning that radioactive sources were missing. Region I conducted a “lessons-
                 learned evaluation” of the incident for its failure to notify Massachusetts officials
                 that the missing sources were found in their State. Region I acknowledged that
                 although there was no written requirement to do so, they should have informed
                 Massachusetts officials. (Addresses Management Challenge #1)

                 Unauthorized Practice of Law by NRC Attorney

                 OIG Strategic Goal: Corporate Management

                 OIG conducted an investigation following information that an NRC attorney
                 entered Notices of Appearance and represented NRC staff in NRC administrative
                 court proceedings before the Atomic Safety and Licensing Board Panel (ASLBP)
                 and practiced law without the required active attorney bar membership.

                 OIG found that between September 2003 and June 2004, the attorney submitted
                 two Notices of Appearance before the ASLBP in which he falsely attested that
                 he was admitted to practice law before the State of Maryland. As a result, he
                 was permitted to practice law before the ASLBP. OIG determined that between
                 April 8, 2003, and April 14, 2005, the attorney was not authorized to practice law
                 due to his inactive status with the Client Protection Fund of the Bar of Maryland


30
NRC OIG Semiannual Report
(Bar of Maryland). The employee resigned from his position at the NRC.
(Addresses Management Challenge #9)

False Academic Credentials Provided by NRC Employee

OIG Strategic Goal: Corporate Management

During an OIG initiative to review academic credentials of NRC
employees, OIG discovered that an NRC employee had listed a
fictitious Bachelor of Science degree on a Standard Form 86, Question-
naire for National Security Positions, and entered this information into the
NRCareers Federal Online Job Application System which was submit-
ted for a promotion at NRC. The employee also listed a fictitious
Associate of Arts degree and a business-related certificate on five
previous NRC employment applications submitted through the
NRCareers Federal Online Job Application System.

OIG found that the employee’s Bachelor of Science degree was from an Internet-
based diploma mill which was not accredited by the Department of Education
and was categorized by two States as a school whose degrees did not meet edu-
cational requirements for State employment or professional licensing. OIG also
determined that the employee did not earn the business certificate as claimed.
As a result of the OIG investigation, the employee resigned from the NRC.
(Addresses Management Challenges #2 and 9)

Allegation of Fraud by NRC Vendor

OIG Strategic Goal: Corporate Management

OIG conducted an investigation based on information that a Federal Govern-
ment vendor was suspected of double billing, fraudulently adding freight/
shipping charges to purchases, and selling non-trade compliant equipment to the
Federal Government. The alleger reported that the fraud against the Government
pertained to Blanket Purchase Agreement (BPA) contracts where the vendor double
billed agencies for equipment, added freight/shipping charges to invoices which
were not authorized in the BPA, and sold non-trade compliant equipment.




                                                                                               31
                                                                     April 1, 2005 – September 30, 2005
                 OIG determined that the NRC had a total of 11 Orders for Supplies and
                 Services in the amount of $162,800 to purchase equipment from the vendor.
                 After reviewing all orders and comparing them to Federal Financial System data
                 on payments made by NRC to the vendor, OIG found that NRC was billed only
                 for requested equipment and received all equipment ordered. OIG found no
                 indication of double billing or purchases of non-trade compliant equipment.
                 (Addresses Management Challenge #6)




32
NRC OIG Semiannual Report
                         STATISTICAL SUMMARY OF
                           OIG ACCOMPLISHMENTS
INVESTIGATIVE STATISTICS
Source of Allegations — April 1, 2005, through September 30, 2005

                         NRC Employee                                                         26
                     NRC Management                                    13
           Other Government Agency                  2
                               Intervenor               3
                          General Public                                                           28
                                    Media       1
              OIG Investigation/Audit                                       15
                    Regulated Industry                      5
                            Anonymous                                       15


           Allegations resulting from Hotline calls: 17                                     Total: 108


Disposition of Allegations — April 1, 2005, through September 30, 2005

                                     Total                                                         108
                Closed Aministratively                           39
        Referred for OIG Investigation                           37
                Referred for OIG Audit          3
Referred to NRC Management and Staff                        19
            Pending Review or Action            3
           Correlated to Existing Case              7

                                                                                                33
                                                                      April 1, 2005 – September 30, 2005
                 STATUS OF INVESTIGATIONS
                 DOJ Referrals . .................................................................................................. 13
                 State Referrals ..................................................................................................... 1
                 State Declinations ............................................................................................... 1
                 DOJ Declinations ............................................................................................. 12
                 DOJ Acceptance ................................................................................................. 1
                 Indictments and Arrests .................................................................................... 1
                 Convictions ......................................................................................................... 1
                 Sentencing ........................................................................................................... 1
                 PFCRA Referral .................................................................................................. 1
                 NRC Administrative Actions:
                 	 Terminations and Resignations ................................................................. 7
                 	 Suspensions and Demotions ...................................................................... 2
                 	 Counseling . .................................................................................................. 3
                 	 Letter of Reprimand .................................................................................... 2
                 	 Other Administrative Action ..................................................................... 2

                 SUMMARY OF INVESTIGATIONS
                 Classification of 		           Opened 	 Closed 	 Cases In
                 Investigations	     Carryover	 Cases	   Cases	 Progress

                   	Conflict of Interest	                                        2	                0	               1	              1
                   Internal Fraud	                                               0	                1	               0	              1
                   External Fraud	                                               7	                3	               7	              3
                   	False Statements	                                            1	                0	               1	              0
                    	Theft	                                                      0	                0	               0	              0
                     	Misuse of Government Property	                             9	                5	              11	              3
                  	Employee Misconduct	                                          2	               11	              11	              2
                 	Management Misconduct	                                         1	                4	               4	              1
                  Technical Allegations — Other	                                 7	               11	              13	              5
                 Proactive Initiatives	                                          0	                3	               3	              0
                 Total Investigations	                                          29	               38	              51	             16
                  Event Inquiries	                                               4	                2	               2	              4

34
NRC OIG Semiannual Report
AUDIT LISTINGS
Internal Program Audit and Special Evaluation Reports

Date	       Title	                                           Audit Number
4/13/05	    Audit of NRC’s Reactor Program System	           OIG-05-A-11
6/7/05	     Audit of NRC’s Policy and Practices 	            OIG-05-A-12
	           Concerning Camera Cell Phones
6/7/05	     Audit of NRC’s Telecommunications Program	       OIG-05-A-13
8/4/05	     System Evaluation of Listed Systems 	            OIG-05-A-14
	           that Process Safeguards and/or
	           Classified Information
8/26/05 	   Review of NRC’s Application of the Office of 	   OIG-05-A-15
	           Management and Budget’s Program
	           Assessment Rating Tool (PART)
8/26/05 	   Audit of NRC’s Contract Closeout Process 	       OIG-05-A-16
9/21/05	    Audit the Decommissioning Program	               OIG-05-A-17
9/22/05 	   System Evaluation of Security Controls for	      OIG-05-A-18
	           Standalone Personal Computers and Laptops
9/30/05	    Audit of NRC’s Generic Communications	           OIG-05-A-19
	           Program
9/30/05 	   Evaluation of NRC’s Certification and 	          OIG-05-A-20
	           Accreditation Efforts
9/30/05 	   Independent Evaluation of NRC’s	                 OIG-05-A-21
	           Implementation of the Federal Information
	           Security Management Act (FISMA) for
	           Fiscal Year 2005
9/30/05 	   Evaluation of NRC’s Automated 	                  OIG-05-A-22
	           Information System Inventory Process
9/30/05 	   Inspector General’s Assessment of the Most	      OIG-05-A-23
	           Serious Management Challenges Facing NRC

                                                                                       35
                                                             April 1, 2005 – September 30, 2005
                 Contract Audit Reports

                 OIG 	              Contractor/	              Questioned	   Unsupported
                 Issue Date	      Contract Number	              Costs	         Costs

                 04/14/05	     Southwest Research Institute
                 	             NRC-02-01-005	                    $2,412	        0
                 	             NRC-02-03-002	                         0	        0
                 	             NRC-02-03-004	                         0	        0
                 	             NRC-02-03-005	                         0	        0
                 	             NRC-02-03-007	                         0	        0




36
NRC OIG Semiannual Report
                  AUDIT RESOLUTION ACTIVITIES
TABLE I
OIG Reports Containing Questioned Costs1
April 1, 2005 – September 30, 2005

		                                                                                           Questioned	             Unsupported
	        Number of	                                                                             Costs	                  Costs
Reports	  Reports	                                                                            (Dollars)	              (Dollars)

A.	    For which no management decision
       had been made by the commencement
       of the reporting period	                                           2	                    $43,547	              $3,606,3652

B.	    Which were issued during the
       reporting period	                                                  1	                     $2,412	                     0

	      Subtotal (A + B)	                                                  3	                    $45,959	              $3,606,365

C.	    For which a management decision was
       made during the reporting period:

	      (i) 	 dollar value of disallowed costs	                            1	                     $2,412	                     0

	      (ii)	 dollar value of costs not disallowed	                        0	                         0	                      0

D.	    For which no management decision
       had been made by the end of the
       reporting period	                                                  2	                    $43,547	              $3,606,365

E.	    For which no management decision was
       made within 6 months of issuance	                                  2	                    $43,547	              $3,606,365

1
 Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.
The General Services Administration (GSA) is responsible for the management decision on these questioned and unsupported costs.
2

GSA has advised that the decision will be made sometime in early 2006.



                                                                                                                              37
                                                                                         April 1, 2005 – September 30, 2005
         TABLE II
         OIG Reports Issued with Recommendations That Funds Be Put to Better Use3
         April 1, 2005 – September 30, 2005

         	                                                                    Number of	            Dollar Value
         Reports	                                                              Reports	              of Funds

         A.	    For which no management decision	 0	 0
                had been made by the commencement
                of the reporting period			

         B.	    Which were issued during the 	 2	                                                    $6,431,6004
                reporting period		

         C.	    For which a management decision was	
                made during the reporting period:		

         	       (i) 	 dollar value of recommendations	                             2	               $6,431,6004
                	      that were agreed to by management

         	       (ii) 	dollar value of recommendations 	                            0	                      0
                 	 that were not agreed to by management

         D.	    For which no management decision had	                               0	                      0
                been made by the end of the reporting
                period

         E.	    For which no management decision was	 0	 0
                made within 6 months of issuance				


         3
          A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be
         used more efficiently if NRC management took actions to implement and complete the recommendation,
         including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of
         interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing
         recommended improvements related to the operations of NRC, a contractor, or a grantee; avoidance of
         unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings which are
         specifically identified.


38
         See audit report summaries on pages 13, 14, 15 and 16.
         4




NRC OIG Semiannual Report
TABLE III
Recommendations Described in Previous Semiannual Reports on Which
Corrective Action Has Not Been Completed

Date	       Report Title	                                                         Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special	                    OIG-03-A-15
            Nuclear Materials

	           Recommendation 1: Conduct periodic inspections to verify that material
            licensees comply with MC&A (material control and accountability) require-
            ments, including, but not limited to visual inspections of licensees’ SNM (special
            nuclear material) inventories and validation of reported information.

	           Recommendation 5: Establish an independent NRC system of accounting for
            SNM possessed by NRC and Agreement State licensees and ensure that begin-
            ning balances are accurate based on NRC’s physical verification of a statistical
            sample of the location and amounts of SNM held by licensees or a review of
            a statistical sample of a licensee’s records or some combination thereof.

05/24/04	   Review of NRC’s Drug-Free Workplace Plan	                          OIG-04-A-15

	           Recommendation 3: Obtain U.S. Department of Health and Human Services
            approval of the NRC Drug-Free Workplace Plan prior to implementation.

09/16/04	   Audit of NRC’s Incident Response Program	                          OIG-04-A-20

	           Recommendation 1: Establish a defined agency-wide incident response plan
            that includes standards for performance, delineation of the conduct of exercises
            and drills, and a well-defined objective mechanism for evaluating incident
            response during exercises.




                                                                                                 39
                                                                    April 1, 2005 – September 30, 2005
        TABLE III (continued)
        Recommendations Described in Previous Semiannual Reports on Which
        Corrective Action Has Not Been Completed

        Date	       Report Title	                                                        Number

        11/12/04	   Results of the Audit of the U.S. Nuclear Regulatory	              OIG-05-A-02
                    	Commission’s Financial Statement for the Fiscal
                    	Years 2004 and 2003

        	           Recommendation 1: The CFO (Chief Financial Officer) should ensure that
                    the functionality of interfaces is rigorously tested before placing any software
                    changes into production. Acceptance testing scripts should be designed more
                    broadly to ensure greater scrutiny of the change being implemented. Inde-
                    pendent validations of software changes and the related acceptance testing
                    should be performed or reviewed and approved by persons other than those
                    requesting the software modifications.

        	           Recommendation 2: The CFO should develop and implement a remediation
                    plan to enhance the reliability of the current billing system. Additionally, as
                    the CFO considers the system redesign they should identify steps to address
                    systemic issues with the current fee billing system.

        	           Recommendation 3: The CFO should ensure that documented, complete
                    and reliable quality assurance procedures are prepared for the billing process.
                    At a minimum, those procedures should provide for a documented global
                    reconciliation, at each billing cycle, of hours and fees reflected in FEES to the
                    invoices generated by the PC-based fee billing systems.




40
NRC OIG Semiannual Report
         ABBREVIATIONS AND ACRONYMS
ASLBP	    Atomic Safety Licensing Board Panel

BPA	      Blanket Purchase Agreement

CFR	      Code of Federal Regulations

DAEO	     Designated Agency Ethics Official

DOE	      U.S. Department of Energy

EDO	      Executive Director for Operations (NRC)

ERB	      Executive Review Board

EPU	      extended power uprate

FIPS	     Federal Information Processing Standards

FISMA	    Federal Information Security Management Act

FY 	      Fiscal Year

GE	       General Electric

GPRA	     Government Performance and Results Act

IAM	      Issue Area Monitor

IG	       Inspector General

IT	       information technology

MD	       Management Directive

MIS	      management information system

NOBLE	    National Organization of Black Law Enforcement Executives

NPSH	     net positive suction head

NRC 	     U.S. Nuclear Regulatory Commission

                                                                                    41
                                                          April 1, 2005 – September 30, 2005
                 NRR	       Office of Nuclear Reactor Regulation (NRC)

                 NSIR	      Office of Nuclear Security and Incident Response (NRC)

                 NWPA	      Nuclear Waste Policy Act

                 OGE	       U.S. Office of Government Ethics

                 OIG 	      Office of the Inspector General (NRC)

                 OMB	       U.S. Office of Management and Budget

                 PART	      Program Assessment Rating Tool

                 PBPM	      Planning, Budget, and Performance Management

                 PC	        personal computer

                 PSEG	      Public Service Enterprise Group

                 RIF	       Reduction in Force

                 RG	        Regulatory Guide

                 RPS	       Reactor Program System

                 SES	       Senior Executive Service

                 SISP	      Sensitive Information Screening Project

                 TTC	       Technical Training Center (NRC)

                 VYNPS	     Vermont Yankee Nuclear Power Station




42
NRC OIG Semiannual Report
                              REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (1988), specifies reporting require-
ments for semiannual reports. This index cross-references those requirements
to the applicable pages where they are fulfilled in this report.


CITATION	               REPORTING REQUIREMENTS	                                                PAGE

Section 4(a)(2)	        Review of Legislation and Regulations . ...................................4

Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .... 11-21, 26-32

Section 5(a)(2) 	 Recommendations for Corrective Action ........................11-21

Section 5(a)(3) 	 Prior Significant Recommendations
	                 Not Yet Completed . ............................................................39-40

Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 34

Section 5(a)(5) 	 Information or Assistance Refused . ................................. None

Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 35

Section 5(a)(7) 	 Summary of Significant Reports ...........................11-21, 26-32

Section 5(a)(8) 	 Audit Reports — Questioned Costs ...................................... 37

Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 38

Section 5(a)(10) 	 Audit Reports Issued Before Commencement
	                  of the Reporting Period for Which No
	                  Management Decision Has Been Made ................................ 37

Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

Section 5(a)(12) 	 Significant Management Decisions With
	                  Which OIG Disagreed ........................................................ None




                                                                                                              43
                                                                                    April 1, 2005 – September 30, 2005
44
NRC OIG Semiannual Report
